<html>
<title> - NOMINATION OF JEANETTE J. CLARK</title>
<body><pre>[Senate Hearing 107-389]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-389
 
                    NOMINATION OF JEANETTE J. CLARK
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

    NOMINATION OF JEANETTE J. CLARK TO BE AN ASSOCIATE JUDGE OF THE 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             MARCH 5, 2002
                               __________

      Printed for the use of the Committee on Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                     Cynthia Gooen Lesser, Counsel
              Jason M. Yanussi, Professional Staff Member
Marianne Clifford Upton, Staff Director and Chief Counsel, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Johanna, L. Hardy, Minority Counsel
   Mason C. Alinger, Minority Professional Staff Member, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
                     Darla D. Cassell, Chief Clerk








                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Durbin...............................................     1
Prepared statement:
    Senator Bunning..............................................     7

                               WITNESSES
                         Tuesday, March 5, 2002

Hon. Eleanor Holmes Norton, Delegate in Congress from the 
  District of Columbia...........................................     2
Jeanette J. Clark to be an Associate Judge of the Superior Court 
  of the District of Columbia....................................     3
    Biographical and professional information....................     8

                                Appendix

Hon. Paul Strauss, Shadow U.S. Senator elected by the Voters of 
  the District of Columbia, prepared statement...................     7









                    NOMINATION OF JEANETTE J. CLARK

                              ----------                              


                         TUESDAY, MARCH 5, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard J. 
Durbin presiding.
    Present: Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. This hearing will come to order. Good 
afternoon, welcome to everybody. The Senate Committee on 
Governmental Affairs holds a hearing today to consider the 
nomination of Jeanette Clark to be an Associate Judge of the 
District of Columbia's Superior Court.
    On November 29, 2001, Jeanette Clark was nominated by 
President Bush to fill a vacancy created by the death of Judge 
George W. Mitchell. Ms. Clark is currently the Associate 
General Counsel in the General Law Section of the Washington 
Metropolitan Area Transit Authority, Office of the General 
Counsel. She has been with WMATA for 16 years.
    Before assuming her current position she served as 
Assistant General Counsel from 1986 to 1992. She held two 
assignments as Special Assistant to the General Manager, and as 
Associate General Counsel in the civil litigation section of 
the Office of General Counsel at WMATA from 1992 to 1996.
    Prior to her work at WMATA, Ms. Clark was an associate at 
Steptoe and Johnson and a law clerk at the District of Columbia 
Office of Employee Appeals.
    She received her B.A. from Trinity College in Washington, 
DC in 1970 and her J.D. cum laude from Howard University Law 
School in 1983.
    I am certain this is a very special day for you, Ms. Clark, 
as you contemplate your next step in your legal career.
    Ms. Clark. Yes, it is, Senator. Thank you.
    Senator Durbin. I understand that you have some family 
members present whom I have had a chance to meet. If you would 
be kind enough to introduce them at this time.
    Ms. Clark. Thank you. With me today is my mother, Margaret 
Jackson; my husband, Leroy Clark; my uncle, James Rippey. I 
also have a host of friends and members of my Metro family who 
are with me today: Cynthia Mabry; Harold McDougall; the General 
Counsel, Cheryl Burke; the Principal Deputy, Carol O'Keefe; the 
former General Counsel, Bob Polk; Katrina Wiggins, the Director 
of Human Resources; Mable Chu; Sonia Bacchus; Mitilda Broadnax; 
Kerslyn Featherstone; Camilla Rawlings; Janice Tolliver; Bill 
Caldwell; Robin Smith; Mark Sullivan; Tom Dorrier; Gerry Stief; 
Camillia Hogan; and Akisha Green.
    Senator Durbin. My only question is: Is Metro still 
running? [Laughter.]
    I would like to welcome my friend and former colleague in 
the House, Congresswoman Eleanor Holmes Norton of the District 
of Columbia, who is here to offer a few words of introduction 
on behalf of Ms. Clark. Congresswoman Norton.

 TESTIMONY OF HON. ELEANOR HOLMES NORTON, DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. It is indeed 
a pleasure for me to introduce to you Jeanette Clark, a native 
Washingtonian, who has been nominated by President Bush to 
serve on our Superior Court here in the District of Columbia.
    I have known Ms. Clark for a long time, but in spite of 
that, Ms. Clark has been nominated.
    Ms. Clark clerked for a Superior Court judge who is now on 
the Court of Appeals when she graduated cum laude from Howard 
University Law School. She knows that court well, therefore. It 
is her professional background that so well qualifies her to 
serve as an associate judge of our trial court.
    She has been an associate at a major downtown law firm and, 
as you have indicated, has spent most of her legal career at 
WMATA, the Washington Metropolitan Area Transit Authority, 
although she was also for a brief time Deputy General Counsel 
of the D.C. Housing Authority. She rose to the rank of 
Associate Counsel at WMATA. Their loss is the gain of our 
Superior Court.
    The honors that Ms. Clark received there, I think, show how 
well she was regarded at WMATA, including employee of the year 
for independent offices. She has given liberally of her time 
and effort to our own bar association, as well as to the board 
of trustees of her college, also located here in the District 
of Columbia, Trinity College.
    In fact, we are particularly proud of Ms. Clark because she 
is a D.C. product. She is a product of our public schools, a 
graduate of McKinley High School, went to college and law 
school here. I am very pleased to recommend her to you, Mr. 
Chairman.
    Senator Durbin. Thank you very much, Congresswoman Norton.
    I recalled, as you were giving the introduction, one of my 
favorite statements by Bill Cosby at a commencement address, 
when he looked out across the graduates and said some of you 
are graduating summa cum laude. Some are graduating magna cum 
laude, some cum laude, and some thank you, lordy.
    Ms. Norton. That, sir, is not Ms. Clark.
    Senator Durbin. I was in the last category. I appreciate 
your strong endorsement of your appointment and I know you have 
a lot of other commitments. Thank you for joining us this 
afternoon, Congresswoman.
    Ms. Norton. Thank you, Mr. Chairman.
    Senator Durbin. Ms. Clark, it is customary in this 
Committee to swear in witnesses. If you will please stand and 
raise your right hand, do you swear the testimony you are about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Clark. Yes, I do.
    Senator Durbin. Thank you. Let the record indicate the 
witness answered in the affirmative.
    If you would like to make some opening remarks?

TESTIMONY OF JEANETTE J. CLARK \1\ TO BE AN ASSOCIATE JUDGE OF 
         THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Clark. Thank you, Senator. I would just like to thank 
many people. Mostly I would like to thank the D.C. Judiciary 
Committee for sending my name as a candidate to the President, 
and the President for nominating me, for the Senate staff for 
working so diligently and consistently with me through this 
phase, and also for the Senate for scheduling this hearing 
today.
---------------------------------------------------------------------------
    \1\ The biographical and professional information appears in the 
Appendix on page 8.
---------------------------------------------------------------------------
    I am just privileged, thrilled, and honored to be here 
today to at least have the Senate consider me for another step 
of public service. I feel extremely humbled by this occasion. 
Thank you.
    Senator Durbin. Thank you. If your rulings are that brief 
and to the point, you are going to be a very successful judge.
    Before I was elected to Congress, many years ago, I 
practiced in the Federal courts and State courts of the State 
of Illinois, and I am envious of your confirmation hearing and 
the term that you are about to embark on. Since I moved from 
the House with a 2-year term to the Senate with a 6-year term, 
I cannot imagine a 15-year term.
    But there comes a time that a certain concern arises about 
the temperament of judges. And some have characterized it as 
black robe-itis when a judge reaches that lofty pinnacle and 
then proceeds to gaze down at the people who assembled below. I 
just wondered if you would comment on this question of judicial 
temperament and how you think it has an impact on the 
administration of justice and law?
    Ms. Clark. I think it is a very important component of a 
judge to have the proper temperament. I feel that judges are 
public servants, that they serve the people of the District of 
Columbia, that service should be taken very seriously because 
it is a very serious responsibility. Along with that 
responsibility comes an obligation on the part of the judge to 
treat people with dignity and respect. And that respect should 
see itself in the form of the demeanor that the judge carries 
while he is on the bench, as well as respect in terms of 
whether they are professional or non-professional, whether or 
not they start their court on time, whether they come to court 
prepared, they have read all the papers that have been 
submitted, and that this, too, furthers the administration of 
justice.
    Senator Durbin. Several years from now, when you are 
confirmed and having served as judge, what do you hope that 
they will say about you, having seen other judges in service on 
the bench?
    Ms. Clark. I would hope that they would say that I have 
been fair to the litigants, that I have been prepared when 
people have come to court, I have taken this role very 
seriously, that I have the view that I am a public servant, and 
I am not apart from the people.
    Senator Durbin. In your experience, working as a clerk and 
as an attorney, can you point to any judges that you have 
appeared before that you specifically admire?
    Ms. Clark. I would like to, first of all, say that the 
judge that I clerked for, Judge Warren R. King, who is very 
saddened that he is not able to be here today but he had a 
death in his family and had to leave. The funeral took place 
today and it was out of town. I certainly had a lot of respect 
for him and learned a lot about what a judicial temperament 
should be and how a judge comes to court and be very prepared.
    I was also extremely impressed by the temperament of Judge 
Penn over at Federal Court and the diligence in which Judge 
Joyce Hens Green prepared all of her materials in some very 
complex civil litigation cases that I had to handle on behalf 
of WMATA.
    Senator Durbin. Do you detect any conflict of having a law 
professor in your family?
    Ms. Clark. No, I do not, Senator. And if there is ever a 
conflict, I would certainly check the Code of Judicial Conduct.
    Senator Durbin. I did not mean that in ethical terms. I 
always have this memory of my law professors and the great 
homage that we paid to them. And being a judge and dealing with 
a law professor on a daily basis is a challenge for anybody.
    Ms. Clark. I agree.
    Senator Durbin. I am sure you will rise to that challenge.
    In your work at WMATA, what areas have you focused on?
    Ms. Clark. Civil litigation. I have had--probably all of 
the years I have been there I have done some civil litigation. 
In more recent history I have done less. But I have also 
concentrated on basically third-party liability, government 
contracts. I have done some real estate transactional work. In 
employment law, I did a significant amount of work in that 
area.
    Senator Durbin. Do you anticipate in this capacity having a 
criminal docket to face, as well?
    Ms. Clark. Yes, I do.
    Senator Durbin. Is this an area where you feel like you are 
going to have to refresh yourself in terms of things that you 
have learned or might have experienced years ago?
    Ms. Clark. Yes, I certainly think so, and I am prepared to 
do that. When I first came to WMATA I did not know how to try a 
case. So I do not believe that the learning curve will be 
difficult for me. I, most recently, in 1998, took the Maryland 
Attorney's Exam where there was a significant amount of 
criminal law, criminal procedure, in that exam for attorneys 
taking it.
    Senator Durbin. Have you taken cases to jury?
    Ms. Clark. Yes, I have taken about 26 cases to jury.
    Senator Durbin. Good for you.
    Ms. Clark. And about 16 or 17 on summary judgment.
    Senator Durbin. I used to call myself a trial lawyer and I 
could count on one hand the cases that went to jury. There are 
not that many that would.
    Let me ask you about the jury system itself, in terms of 
your dealings. It has been on the civil side?
    Ms. Clark. Yes, exclusively.
    Senator Durbin. What have you learned in dealing with 
juries that might be instructive? There are some people who are 
critical, in fact articles that were recently written, about 
doing away with civil juries. What are your thoughts about 
that?
    Ms. Clark. I believe that the people should be a part of 
the process and that it is incumbent on the court and the 
parties to make certain that the evidence is presented that 
would be admissible and for them to make a reasoned finding.
    Senator Durbin. The argument, I think, has been made that 
many questions are just too complicated for the average person 
to grasp. What has been your experience?
    Ms. Clark. I think that they generally grasp everything, 
especially with the help of expert witnesses and proper 
examination by counsel, and sometimes the court.
    Senator Durbin. Good. I have three questions I am required 
to ask each nominee which I will ask you at this point for the 
record.
    First, is there anything you are aware of in your 
background of interest with the duties of the office to which 
you have been nominated?
    Ms. Clark. No.
    Senator Durbin. Do you know any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Clark. No, I do not.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Ms. Clark. No.
    Senator Durbin. I hope that you and all in attendance will 
conclude the brevity of this hearing is not a demonstration of 
a lack of interest. It is a demonstration of the abundance of 
quality which you bring to this nomination. You have been 
thoroughly vetted. You have gone through more forms to fill out 
than you thought you ever would have to. A lot of people have 
asked a lot of questions. My staff and I personally had a 
chance to review them and I think you are an excellent nominee.
    I look forward to seeing your name come to the floor very 
quickly and seeing you don a black robe very quickly, as well.
    Ms. Clark. Thank you, Senator.
    Senator Durbin. Thank you and your family for joining us 
today. The next step in the process will be the prompt 
consideration of your nomination at full Committee markup in 
the very near future, and then report to the full Senate for 
final action.
    And with that, the hearing is adjourned.
    [Whereupon, at 2:47 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Today we have before us Jeanette Clark, who has been nominated to 
serve as an Associate Judge to the D.C. Superior Court.
    Ms. Clark was born and raised in the District of Columbia, and has 
spent much of her adult life working in the city.
    She has a background in early childhood education, and I saw in her 
biographical information that she was a teacher for several years.
    I have always said that teachers hold one of the most important 
jobs in our society, in not only teaching our children to read and 
write, but in inspiring and motivating them.
    If confirmed, I hope Ms. Clark will be able to draw on her 
education background to help many of the District's children who are in 
need.
    I look forward to hearing from Ms. Clark today, and gaining her 
perspective on what will possibly be her new job.
    Thank you, Mr. Chairman.

                               __________
PREPARED STATEMENT OF HON. PAUL STRAUSS, SHADOW U.S. SENATOR ELECTED BY 
                 THE VOTERS OF THE DISTRICT OF COLUMBIA
    Chairman Durbin, and Members of the Senate Governmental Affairs 
Committee, I am Paul Strauss, the United States Senator elected by the 
voters of the District of Columbia, a position sometimes referred to as 
the Shadow Senator. I am also an attorney who practices law in our 
local courts.
    In each of those capacities, I appreciate the opportunity to 
provide this statement on behalf of my constituents in the District of 
Columbia in support of the nomination of Ms. Jeanette J. Clark, to be 
an Associate Judge of the District of Columbia.
    Ms. Jeanette J. Clark, is a native Washingtonian and an attorney 
with the Washington Metropolitan Area Transit Authority (WMATA). 
Perhaps equally significant to her legal experience, is the fact that 
she has been an educator in our District of Columbia Public Schools. By 
all accounts she has in her professional life achieved much 
accomplished success. Her hard work in the legal profession, her 
apparent high standards of conduct, and an extraordinary array of 
support for programs in education has made Ms. Clark an appropriate 
choice for judicial service. I expect that her history of service in 
both the legal and education institutions will serve her well on the 
bench.
    As this Committee should know from my involvement with past 
nominations, I am not hesitant to call attention to deficiencies of a 
nominee. When issues of concern about a prior nominee arose in the 
past, I asked the voting members whose interest in the process was not 
as direct as mine, to vote on my behalf. Likewise, today I ask the 
Members of the Committee and the other voting Senators to vote on mine 
and DC's behalf to confirm Ms. Jeanette Clark.
[GRAPHIC] [TIFF OMITTED] T8625.001

[GRAPHIC] [TIFF OMITTED] T8625.002

[GRAPHIC] [TIFF OMITTED] T8625.003

[GRAPHIC] [TIFF OMITTED] T8625.004

[GRAPHIC] [TIFF OMITTED] T8625.005

[GRAPHIC] [TIFF OMITTED] T8625.006

[GRAPHIC] [TIFF OMITTED] T8625.007

[GRAPHIC] [TIFF OMITTED] T8625.008

[GRAPHIC] [TIFF OMITTED] T8625.009

[GRAPHIC] [TIFF OMITTED] T8625.010

[GRAPHIC] [TIFF OMITTED] T8625.011

[GRAPHIC] [TIFF OMITTED] T8625.012

[GRAPHIC] [TIFF OMITTED] T8625.013

[GRAPHIC] [TIFF OMITTED] T8625.014

[GRAPHIC] [TIFF OMITTED] T8625.015

[GRAPHIC] [TIFF OMITTED] T8625.016

[GRAPHIC] [TIFF OMITTED] T8625.017

[GRAPHIC] [TIFF OMITTED] T8625.018

[GRAPHIC] [TIFF OMITTED] T8625.019

[GRAPHIC] [TIFF OMITTED] T8625.020

[GRAPHIC] [TIFF OMITTED] T8625.021

[GRAPHIC] [TIFF OMITTED] T8625.022

[GRAPHIC] [TIFF OMITTED] T8625.023

[GRAPHIC] [TIFF OMITTED] T8625.024

[GRAPHIC] [TIFF OMITTED] T8625.025

                                   - 

</pre></body></html>
